IN THE SUPREME COURT OF THE UNITED STATES

No.
SUSAN M. PEARSALL,
Petitioner
v.
THOMAS C. GUERNSEY, DDS
Respondent

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I, Susan M. Pearsall, the
unrepresented party, certify that the petition for writ of certiorari contains 1,905
words, excluding the parts of the petition that are exempted by Supreme Court Rule
33.1(d); and in compliance with Supreme Court Rule 33.l(g)(i) said count does not
exceed 9,000 words.

Executed on December 15, 2019

d

UAaM

Susan M. Pearsall

